t ■ -

• •*

Ng
•; £ &

?2ii

IN THE
SUPREME COURT OF THE UNITED STATES

FILED
JUL 2 2 2020

CfrijJtevce

— PETITIONER

(Your Name)
vs.

C&Rrtr'z

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

tl TK g/^uir/?gt;y(r oF/VPfc#15J /4fl L&tJ'r#r__________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

LAW
(Your Name)

O 3f

ft

(Address)

Ft

Florida ?<jm

(City, State, Zip Code)

1/1
(Phone Number)

RECEIVED
JUL 28 2020
OFFICE OF THE CLERK
qmpRFMF COURT. U.S.

i

QOESHONS PRESENTED IFOR REVIEW
DO I HAVE A FIRST AMENDMENT RIGHT TO PETITION FLORIDA'S JUDBCIIAL QUALIFICATION
COMMISSION, TOE GOVERNMENT, HIM WRITING, FOSS A REDRESS OF GRIEVANCES ABOUT STATE
COURT JUDGE JANET CRQOM?
DO 0 HAVE A FIRST AMENDMENT RIGHT TO SPEAK TO TOE PRESS WHEN CORTEZ FORBIDES ME
TO SPEAK TO TOE PRESS AND BLOCKS MY ATTEMPTS TO SPEAK TO TOE
R OF FLORIDA
AMD OTHERS?
DO I HAVE A FOURTH AMENDMENT RIGHT TO BE FREE FROM UNREASONABLE SEIZURES AMD
SEARCHES WHERE TOE AFFER1M1ATH0IM BY KIMlffiERLY CORTEZ TOE STATE ATTORNEY IS FALSE
AMD THERE IS MO CRI1IM1E COMMITTED BY ME? Ml OTOER ACTS BY TOE STATE ATTORNEY THAT
FOLLOWED WERE WITHOUT FOUNDATION.
DO I HAVE A FIFTH AMENDMENT RIGHT IM JUDICIAL PROCEEDING DM A CRIMINAL CASE MOTTO
BE FORCED TO BE A WITNESS AGAINST MYSELF?
DO I HAVE A SIXTH AMENDMENT RIGHTTO A SPEEDY TRIAL WHEN I HAVE MADE AT1MELY
REQUEST IN WRITING AND A REQUEST TO REPRESENT MYSELF?
DO I HAVE AM EIGHTH AMENDMENT RIGHT NOT TO HAVE EXCESSIVE BADE THAT GOES BEYOND
WHAT IS NORMAL AND WHERE THERE BS NO CRIME?
DO I HAVE A FOURTEENTH AMENDMENT RHGHTTO TOE EQUAL PROTECTION OF THE LAW
WHEW CORTEZ DEPRBVES ME OF LIBERTY AND OTHER ROGHTS WITHOUT FADR DUE PROCESS OF
LAW AND THERE IS NO CRIME COMMITTED BY ME? CORTEZ'S ACTONS HAVE MUUFED AND
MADE VOID AND IMPAIRED MY PRIVILEGES AND IMMUNITIES- DOES CORTEZ HAVE THIS RIGHT?
CAN I BRING A COMPLAINT AGAINST CORTEZ FOR FRAUDLEWTLY ENDORSEJNG A MOTION FOR
EXAMINATION OF DEFENDANT WHEN THERE ARE NO CONDITIONS THAT WERE REQUIRED BY
STATE LAW TO BRING SUCH AN ACTON? FLORIDA LAW RULE 3-210.
DOES THE HONEST SERVICES FRAUD ACT IB USC 13m PROTECT ME FROM FRAUD PERFORMED
MULTIPLE TMES BY CORTEZ BN HER ROUE AS STATE ATTORNEY?
DO 0 HAVE TOE SAME RIGHT AS OTHERS TO HAVE THE DISTRICT COURT EXAMINE TOE HEART OF
MY COMPLAINT WHICH BS LACK OF PROBABLE CAUSE, INSTEAD DENY MY APUCATION ON
ERRONEOUS GROUNDS? MY FACTS WHICH, IF PROVEN MIGHT ARGUABLY ENTITLE ME TO
REUF?
DO I HAVE A RIGHT IN FUNG A CLAIM IN DISTRICT COURT AGAINST KIMBERLY CORTEZ TO
HAVE A SUMMONS ISSUED WHEN I HAVE FILED IN DISTRICT COURT AND THE 11™ dROIIT OF
APPEALS ON THEIR FORMS COMPLETE AMD ACCURATE FINANCIALS AND ALL FLORIDA STATE
COURTS AND FEDERAL DISTRICT COURT JUDGE KENNITO MARRA HAVE ACCEPTED MY VERY
SAME FINANCIALS?

«

DESPITE MY HAVING DONE EVERYTHING BY THE LETTER OF THE LAW SHOULD I HAVE MY LIFE,
HEALTH, WORK DESTROYED BY STATE ACTORS* FRAUD?

*

4

LIST OF PARTIES
LAWRENCE F CURTIN
1731 AVALON AVE.

FT PIERCE FLORIDA 34949
772-631-6455
PETfUONER

V
KIMBERLY CORTEZ

STATE ATTORNEY
411 SOUTH SECOND ST
FT PIERCE FLORIDA 34950

RESPONDENT

4

TABLE OF CONTENTS
PETmON FOR WRIT OF CERTIORARI
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Co \j£&

<s>

AFFIDAVIT IN SUPPORT FOR LEAVE TO PROCEED IN FORMA PAUPERIS
MEDICAL
INJURIES
PHYSICIAN'S CERTIFICATION
WIFE'S INCOME/EXPENSES AND ACTIVITIES
LIST OF PARTIES
JURISDICTION
OPINIONS BELOW
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
QUESTIONS PRESENTED FOR REVIEW
TABLE OF CITED AUTHORITIES

<3>
3

&>

©

s>

STATEMENT OF CASE
LIST OF EXIBITS
REASONS FOR GRANTING THE WRIT
REQUEST FOR RELIEF
PROOF OF SERVICE
CONCLUSION
PLEASE NOTE THAT PAGE NUMBERS HAVE CIRCLES O AROUND THEM AND EXIBITS HAVE
PARENTHISf ) AROUND THEM

TABLE OF CUES AWHOWmES

FIRST AMENDMENT RIGHTTO POTTOM FLORIDA'S JUDICIAL QUALIFICATION COMMISSION,
THE GOVERNMENT, IN WRITING, FOR A gjanjsjjaeft OF GRIEVANCES ABOUT STATE COURT JUDGE
JANET GROOM.
FIRST AMENDMENT BIGHT TO SPEAK TO THE PRESS WHEN CORTEZ FOWDES ME TO SPEAK TO
THE PRESS AND BLOCKS MY ATTEMPTS TO SPEAK TOTHE GOVERNOR OF FLORIDA AND
OTHERS.
FOURTH AMENDMENT WIGHT TO BE FREE FROMI UNREASONABLE SEIZURES AND SEARCHES
WHERE THE AFFERMATION BY KIMBERLY CORTEZ THE STATE ATTORNEY OS FALSE AND THERE IS
NO CRIME COMMITTED BY ME.
FIFTH AMENDMENT RIGHT IN JUDSOAL mtigaaaimiiNG IN A CRIMINAL CASE NOT TO BE FORCED
TO BE A WITNESS AGAINST MYSELF.
SIXTH AMENDMENT RIGHT TO A SPEEDY TRIAL WHEN I HAVE MADE A TIMELY REQUEST IN
WRITING AND A REQUEST TO REPRESENT MYSELF.
EIGHTH AMENDMENT RIGHT NOT TO HAVE EXCESSIVE BAIL THAT GOES BEYOND WHAT IS
NORMAL AND WHERE THERE IS NO CRIME.
FOURTEENTH AMENDMENT RIGHT TO THE EQUAL PROTECTION OF THE LAW WHEN CORTEZ
DEPRIVES ME OF LIBERTY AND OTHER RIGHTS WITHOUT FAIR DUE PROCESS OF LAW AND
THERE IS NO CRIME COMMUTED BY ME CORTEZ'S ACTIONS HAVE NU8JFED AND MADE VOID
AND IMPAIRED MY PRIVILEGES AND IMMUNITIES. DOES CORTEZ HAVE THIS RIGHT.
WILQZMAN V OTY OF RIVERIERA BEACH 3138 S CT1B45120181 WHICH IS THE LATEST CASE LAW
ON PROBABLE CAUSE AND FIRST AMI mma ENT RIGHT.
Mangel v. Qty of Joiet. HIL. 137 s. QL 911, sis (2&1TI May challenge his pretsia! detention
on the ground that it violated the Fourth Amendment
(41H AMENDMENT RIGHT TO BE FREE FROM UNREASONABLE SEARCHES AND SEISEUREj).
RMUQQUS PROSECUTION GOES ON BEYOND 4m AMENDMENT VIOLATION
BRENDUN V CALIF 551 US 249 A PERSON IS SEIZED SUCH THAT HE IS NOT FREE TO MOVE..
PACE V EVANS 7W FZrfi 1428, "TRIAL COURT_MUSF NOT ACT ARBITRARY AND IT MAY NOT
DENY THE APPLICATION ON ERRONEOUS GROUNDS fMOOT|. PACTS COMPLAINT ALLEGED
FACTS WHICH, IF PROVEN, MIGHT ARGUABLY ENITSIE HIM TO RELSET. "NORMALLY ATTOSS
STAGE OF THE APPELLATE PROCEEDINGS WE WOULD ONLY GRANT PLAINTIFF, LEAVE TO APPEAL

!!M FORMA PAUPERSS-REVERSE TOE DENIAL TO PROCEED INFQRMA PAUPERIS IN TOE DISTRICT
COURT".
HOIMEST SERVICES FRAPP 1SUSC SECTION13416 REASONABLY FORESEEABLE ECONOMIC HARM
BASED ON MATERIALITY. DEFRAUD VICTIMS OF INTANGIBLE RIICiHOTTO HONEST SERVICES
USING UNETHICAL CONDUCT, FAILED TO CARRY OFFim TASKS ADEQUATELY* CORTEZ MADE
MATERIAL MISREPRESENTATIONS. MATERBAIUnTYTTEST ARISING OUT OF TOE LAW OF FRAUD,
SCHEME OR ARTIFICE, TO DEFRAUD, ANOTHER OF HONEST SERVICES, TWO MAILINGS CAN
FORM A PATTERN OF RACEIEERBNG ACTIVITY. A KICKBACK BN THE FORM OF INSURING CORTEZ
GETS A PROMOTION AS WENTZ DID WHEN HE CHAGED HIS TESTIMONY HE WAS PROMOTED
AND GOT A PAY RAISE. ALL FROM VARIOUS CASE NATIONWIDE

REPORT AND RECOMMENDATION ON PLAINTIFFS MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS. MAGISTRATE MATNARD-SEPTEMBER 12, 2019
ORDER ADOPTING MAGISTRATE JUDGES REPORT. JOSE MARTINEZ OCTOBER 31, 2019
APPEAL FROM THE UNITED STATES DISTRICT COURT FOR SOUTHER DISTRICT OF FLORIDA
CHARLES R WILSON 6/R/2020
APPEAL OF MOTION FOR RECONSIDERATION WILSON AND NEWSOM 7/10/20

s

JURISDICTION

jM For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was _Sfl'i

[ ] No petition for rehearing was timely filed in my case.
[f] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: *7 Ate/
__________ , and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY POV1SIONS INVOLVED
FIRST AMENDMENT
FOURTH AMENDMENT
FIFTH AMENDMENT
SIXTH ASMENDMENT
EIGHT AMENDMENT
FOURTEENTH AMENDMENT
W LOZMAN V CITY OF RIVERJERA BEACH 138 S CT1945 (2018)
Manuel v. Otty of Joliet^ II., 137 S. CL 911, 915 f2017J

MALICIOUS PROSEOUfflON
BRENDUN V CAUF 551 US 249
PACE V EVANS 709 F2d! 1428
HONEST SERVICES FRAUD 18USC SECTION 1356

STATEMENT OF CASE
THE ORIGINS OF THIS CASE CAN BE FOUND IN US SUPREME COURT WRIT OF CERTIORARI! 175060 STATEMENT OF CASE. LAWRENCE F CURTTliN V RANGER CONSTRUCTION. I WAS SERIOUSLY
INJUR9ED IN A CRASH ON 9-95 IN FLOR9DA CAUSED BY THE NEGLIGENCE OF RANGER
CONSTRUCTION. 8 AM DISABLED FOR LIFE. IIBWUGMT A LAW SU9T IN STATE COURT AGAINST
RANGER CONSTRUCTION. THAT WAS HANDLED BY A FLORIDA STATE COURT JUDGE JANET
CROOM. I AM NOT RQJTIIGATSNG THAT CASE.
I WAS FRUSTRATED BY THE OUTCOME OF THAT CASE SO I WROTE A LETTER TO THEN FLORIDA
GOVERNOR RICK SCOTT. (Ij. HIS OFFICE RESPONDED WITH A RECOMMENDATION I CONTACT
THE FLORIDA "JUDICIAL QUALIFICATION COMMISSION^ pQCi REGARDING GROOM.
ON
JUNE 23, 20181 WROTE A LETTER TO THE JQC- IN THAT LETTER S STATED "SHE DID NOT CAUSE
MY INJURIES". I FURTHER STATED SHE DID DENY MY CONSHTUTBONAL RIGHT TO BRING
RANGER CONSTRUCTION'S NEGLIGENCE TO A JURY. THIS DENIED ME MEDICAL FOR
CORRECTIVE SURGERY. "SURGERY WOULD HAVE ALLOWED ME TO CONTINUE ON WITH THE
WORK THAT I WAS DOING* "HER ACTIONS PUT MY WIFE AND 8 IN GREAT PAIN. (3J
I FURTHER STATED THAT "IT IS A FELONY TO DENY A CITIZEN THEIR CONSHIUTIONAL RIGHT
WHERE THAT DENIAL RESULTS IN DEATH OR SERIOUS INJURY. SERIOUS INJURY HAS BEEN DONE
TO MY SELF AND MY WIFE,
I WENT ON TO STATE "AN EYE FOR AN EVE*. THE FIRST EVE IS MY SERIOUS INJURIES. THE
SECOND EYE IS RANGER CONSTRUCTIONS NEGBJEGENQL NEXT. S STATED "THAT THE
PUNISHMENT MUST FITTHE CRIME*. THE ONLY CRIME I MENTION IS GROOM'S "DENIAL OF MY
CONSTITUTIONAL RIGHTS*.
LASTLY, I STATED THAT "I HAVE AN OBLIGATION UNDER THE OATH I TOOK IN 1964TO STOP
CROOM*.
MY NEXT ACT 5 DAYS LATER WAS TO WRITE A LETTER TO FLORIDA'S SENATE COMMITTEE ON
THE JUDICIARY. (4) 8 BELIEVED MY LETTERS WERE ILEGDMATE COMPLAINTS TO THE PROPER
AUTHORITIES.
YOU DO NOT GO TO THE JUDBCm QUALIFICATION COMMISSION TO THREATEN A JUDGE'S
PERSON. YOU GO THERE TO THREATEN A JUDGE’S POSITION.
NEXT I HAD TWO SHERIFFS DEPUTIES AT MY HOUSE ON JUNE 29,2018. ONE WAS DETECTIVE
WENTZ. WENTZ STATED THAT THEY WERE THERE ABOUT MY LETTER. I THOUGHT THEY WERE
THERE ABOUT MY STATEMENT IN MY LETTER ABOUT GROOM'S "CHIME*. WENTZ STATED THAT
MY LETTER WAS TAKEN AS A THREAT BY THE JQC- UNBENKNOWN TO ME WENTZ HAD A
HIDDEN TAPE RECORDER. THIS IS WHAT WAS ON THE TAPE:

WENIZ: "LET ME TEH. YOU 'WHATI THINK ABOUT AIUL OF THIS AMD YOU TELL ME IF I AM RIGHT
OR WROMG. I THINK YOU WERE TRYING TO GET SOMETHING ACCOMPLISHED AND BY WRITING
THIS LETTER, THAT WAS YOUR INTENTION".
CURTIN: "TO GET HER REMOVED."
WENTZ: "MOTTO HARM HER OR INSURE HER BUT TO GET HER REMOVED".
WENTZ STATED IN HIS RETORT THAT I WAS VERY SARCASTIC HIS WORDS ADD UP TO NO
PROBABLE CAUSE.
ON JULY 3, 20181 WAS SURROUNDED IN MY DRIVEWAY BY 6 ARMED SHERIFFS DEPTT1UES. I
WAS HAND CUFFED AMD TAKEN TO JAIL II WAS MOT MADE AWARE OF THE CHARGES UNTIL I
WAS BROUGHT IN FRONT OF STATE JUDGE PHILIP YACCUC1.1 WAS NOT ALLOWED TO SPEAK.
MY BAIL WAS SET AT $50.000.00. HE WROTE A PRETRIAL SUPERVISION ORDER WHERE HE
WROTE "NO STATEMENTS TO THE PRESS” "NO CONTACT OR MESSAGES TO JUDGE CROONS”. (5)
MY LETTERS WERE TO THE JQC AND THE FLORIDA SENATE COMMITTEE ON THE JUDICIARY, NOT
TO CROOM OR THE PRESS. HE ALSO ORDERED ME TO WEAR AN ANKLE BRACELET WHICH
RESTRICTED MY LIBERTY.
I HAD INFORMED THE ARRESTING OFFICER THAT 0 HAD OPEN HEART SURGERY BECAUSE OF THE
CRASH AND THAT I NEEDED MY HEART MEDICATION. 0 TOLD HIM EXACTLY WHERE HE COULD
GET IT. HE SAID HE WOULD. HE NEVER DID. THE NEXT MORNING "I COULD NOT BREATH”. I
WAS THEN TAKEN TO THE NURSE IN THE JAIL SHE GAVE ME THE WRONG MEDICATION. MY
CONDITION WORSENED. 0 WAS THEN TAKEN TO ILAWNWOOD MEDICAL CHAINED TO A BED.
THERE MY HEART DOCTOR BROUGHT IN MY CORRECT MEDICATION.
THE BAIL BONDSMAN WANTED $5000.00. II DID NOT HAVE IT. MY WORK WAS DESTROYED
BECAUSE OF THE CRASH. MY WIFE WAS ABLE TO GET HIM TO ACCEPT $2000.00.1 WAS
RELEASED WITH THE AMKEL BRACELET ON. I SHILL OWE $3000.00. IT WAS NOT UNTIL CORTEZ
CHARGED ME ON JULY 24, 2018 BN WRITING WITH "THREATENING DEATH OR SERIOUS BODILY
HARM" TO CROOM THAT I FOUND CHIT WHAT I WAS CHARGED WHIM. AFTER THAT I WAS
CHARGED WITH THE MOST BIZARRE CLAIM OF "THREATENED BODILY HARM TO THE VICTIM,
BASED UPON THE TOTALITY OF THE CIRCUMSTANCES OF THE LANGUAGE IN THE LETTER". |6)(7)
ALL CONVERSATIONS WITH THE DETECTIVES WERE RECORDED BY WEN1FZ. NOTE THAT NO ONE
HAS SAID/WRITTEN THAT 8 WAS VIOLENT OR THREATENING OTHER THAN CORTEZ. CORTEZ
KNEW THAT THESE FALSE MATERIAL CHARGES DELIVERED TO ME TWICE AND PUBLISHED BY
HER WOULD CAUSE ME ECONOMIC HARM. CORTEZ’S ACTS WERE FRAUD.
FROM THE BEGINNING OF THIS CHARGE I HAVE CONT8NUALY ASKED FOR A SIXTH AMENDMENT
RIGHT TO A SPEEDY TRIAL (B). A PUBLIC »:aaa; >;a * WAS ASSIGNED TO MY CASE, WHITNEY
DUTEAU. I MET WITH HER ONCE WITH MY WIFE. UNBEKNOWN TO ME BECAUSE OF MY
PATENTED WORK IN RADIO FREQUENCY SHE HILED A "MOTION FOR EXAMINATION OF
DEFENDANT” NOVEMBER 2,2018. "THE MOTION WAS TO BE MADE IN GOOD FAITH AND ON

o

REASONABLE GROUNDS TO BELIEVE THAT TIHIE DEFENDANT WAS DNCOMPENTENT TO
PROCEDED*. "THE MOTION SHALL CONTAIN A REOI1AL OF SPECIFIC OBSERVATIONS AND
CONVERSATIONS WITH THE DEFENDANT THAT FORMED THE BASES FOR THE MOTTITON".
THERE WERE NO OBSEVATONS OR CONVERSATIONS WITH THE DEFENDANT IN MS DUTEAU
MOTION. (9) IN ORDER TO GET RID ON MS DUTEAU I HAD TO BRING A LAW SUIT AGAINST HER.
I HAD ASKED FOR MY RIGHT TO REPRESENT MY SELF.
A NEW JUDGE WAS ASSIGNED TO MY CASE. JUDGE THOMAS BROWN. I HAD WRITTEN TO HIM
ASKING FOR MY RIGHT TO A SPEEDY TRIAL (9). THIS WAS NEVER GRANTED. I ALSO ASKED HIM
TO ALLOW ME TO REPRESENT MYSELF. INSTEAD HE APPOINTED DON CHINQUINA FROM
FLORIDA’S DISPUTE RESOLUTION. DON REFUSED TO DO ANYTHING I ASKED. INSTEAD HE JUST
FOLLOWED CORTEZ'S LEAD.
JUDGE BROWN SENT MY CASE TO MENTAL HEALTH COURT. THERE I MET WITH ITS DIRECTOR
JOANN JOHNSON. SHE READ WHAT WAS IN THE RLE. SHE READ MY LETTER AND COULD NOT
UNDERSTAND WHY I HAD BEEN CHARGED. SHE TOLD ME NOT TO GOTO MENTAL HEALTH
COURT. SHE THEN BEGAN GOING TO BOWNS ENDLESS HEARINGS- BROWN TOLD ME THAT IF I
DID NOT GO FOR AN EXAMINATION HE WOULD PUT ME IN JAIL BECAUSE OF MY HEART
CONDITION THAT WOULD HAVE BEEN A DEATH SENTENCE. HE WOULD NOT ADDRESS MY
OBJECTION INSTEAD BROWN ORDERED ME TO GO TO A PSYCHOLOGIST, ZAKY. I OBJECTED IN
WRUNG. (10) I WENT. I APPEALED MULUPLE UMES BUT FLORIDA'S 4™ CIRCUIT COURT OF
APPEALS SENT EACH ONE BACK TO BROWN. THEY REFUSED TO ISSUE AN OPINION IN WRITING.
AFTER THIS BROWN AGAIN ORDERED ME TO GO TO ANOTHER PSYCHOLOGIST, LANDRUM.
AGAIN, I OBJECTED AND WROTE BROWN A LETTER STAUNG THAT I WAS ONLY GOING BECAUSE
OF HIS THREAT OF JAIL (11). BOTH OF THESE PSYCHOLOGISTS WITHOUT ANY RASES IN FACT
CONCLUDED THAT I WAS INCOMPETENT TO GO TO TRIAL I RENEWED MY REQUEST FOR THE
RIGHT TO REPRESENT MYSELF. (12) I ASKED MY ATTORNEY TO WITHDRAW HIS PROPOSED
ORDER FOR DISMISSAL (23)
HNALLY, AFTER NEARLY TWO YEARS OF HAVING MY UBERTY TAKEN AWAY FROM ME THE
CHARGES WERE DISMISSED BEFORE FEDERAL APPEAL WAS DISMISSED- (14) PLEASE NOTE THAT
THE STATE FILE HAS BEEN WELL SANITIZED. MOST DOCUMENTS ARE MISSING. (15) THIS IS AN
EXAMPLE OF WHAT ONE GETS WHEN THEY TRY TO GET A FILE.
AS ONE CAN SEE THE EFFECT OF ALL OF THIS WAS TO STOP ME FROM MAKING (JEGIMATE
COMPLAINTS TO THE PROPER AUTHORITY ABOUT CROOM'S CRIMES. I WAS BLOCKED FROM
CONTACTING THE PRESS AND GOVERNOR DESANTIS. (16) I WAS GOING TO BORROW MONEY
TO HAVE SURGERY DONE BUT I COULD NOT BORROW ANY MONEY ONCE I HAD CRIMINAL
CHARGES AGAINST ML ALTHOUGH IT DOES NOT MATTER I SERVED THIS COUNTRY AND MY
WORK SAVED LIVES. (17) I AM A WRITER AND INVENTOR. JUDGE RICHARD POSENER HAS
COMMEND ME ON MY WORK AS A WRITER IN WRITING ON THE INSIDE COVER IN HIS

i

t

HANDWRITING WITH HIS SIGNATURE ON ONE OF HIS BOOKS THAT HE SENT TO ME. HE WAS
THE MOST PROLIFIC WRITER IN THE FEDERAL JUMOARY.
DOCUMENTS 1 THRU 17 ARE IN LIST OF EMMS

USTOFBQBITS
(1) LETTER TO FORMER GOVERNOR SCOTT.
(2) SCOTTS RESPONSE
(3) MY JUNE 23,2018 LETTER BTO JUDICIAL QUAUFKATION COMMISSION
(4) MY JUNE 28,2018 LETTYER TO THE SENATE COMMITTIES ON THE JUDICARY
(5) PRETRIAL SUPERVISION ORDER
(6) CORTEZ INFORMATION CHARGE
(7) CORTEZ TRAVERSE CHARGE
(8) MOTION FOR EXAMINATION OF DEFENDANT
(9) HUNG ASKING FOR SPEEDY TRIAL
(10) OBJECTION IN WRITING TO SEE ZAKY
(11) OBJECTION IN WRITING TO SEE LANDRUM
(12) REQUEST TO REPRESENT MYSELF
(13) ASKED ATTORNYTQ WITHDRAW PROPOSED ORDER FOR DISMISSAL
(14) DISMISSAL
(15) STATE FILES HAVE BE SANITZED
(16) BLOCKED FROM CONTACTING GOVERNOR DESANTIS
(17) HEROISM

REASONS FOR GRANTING THE PETITION
UNLESS IT IS REVERSED THE CASE LAW IN THE U™1 CIRCUIT NOW IS THAT YOU CAN STOPPED IN
THE STREET OR YOUR DRIVEWAY AT GUN POINT AND TAKEN TO JAIL WHEN THERE IS NO
CHARGE OR CRIME. AT THE JAIL ANY NECESSARY MEDICINE THAT YOU ARE TAKING CAN BE
DENIED YOU, EXACERBATING YOUR GONOmiON. YOU CAN BE FORBIDDEN TO SPEAK TO THE
a i FROM CONTACTING GOVERNMENT OFFICIALS ABOUT A NEW PROCESS
PRESS AND BL
THAT YOU HAVE INVENTED TO PRODUCE HYIDGOGEN PEROXIDE WHICH CAN BLOCK ALL
VIRUSES. IF THERE IS NO CRIME THAT YOU ARE CHARGED WITH YOU CAN BE FORBIDDEN TO
SPEAK AT A HEARING.
21 DAYS LATER YOU ARE GIVEN THE CHARGES AGAINSTYOU. THE STATE ATTORNEY CAN ASK
FOR BAIL THAT HAS NO RELEATION TO THE FACT THAT THERE IS NO CRIME.
THIS IS WHY THIS IS IMPORTANT: IF YOU EXCERCSE YOUR RIGHT TO "PETITION THE
GOVERNMENT FOR A REDRESS OF GRIEVANCES’' IN WRITING TO THE PROPER GOVERNMENT
AGENCY THAT HAS NO THREAT OF DEATH OR BODILY HARM IN IT, THE STATE ATTORNEY CAN
COMMIT FRAUD TO BRING YOU UNDER THBR CONTROL, AND WHERE THE TOTALITY OF
LANGUAGE IN THE WRITTEN PETITION IS ABOUT A "CRIME" THAT THE SUBJECT OF YOUR
PETITION COMMITTED. THE EFFECT OF THE STATE ATTORNEY’S FRAUD IS TO COVER UP THE
CRIME OF THE SUBJECT OF YOUR PETITION.
ONCE YOU ARE UNDER THE STATE'S CONTROL YOU CAN BE DENIED YOUR RIGHT TO A SPEEDY
TRIAL AND TO REPRESENT YOUR SELF. INSTEAD IN ORDER TO BURY YOUR CHARGES THE STATE
HAS YOU DECLARED "INCDMPENTTO STAND TRIAL".
THE MOST IMPORTANT PART OF THIS IS THE DENIAL OF YOUR RIGHT TO PETITION THE PROPER
GOVERNMENT AGENCY IN WRITING FOR A REDRESS OF GRIEVANCES. IF PEOPLE USED THIS
RIGHT THERE WOULD BE LESS CHAOS IN THIS COUNTRY. MOST PEOPLE ARE AFRAID TO COME
FORTH BECAUSE OF THEIR FEAR THAT WHAT HAS BEEN DONE TO ME CAN BE DONE TO THEM.

REQUEST FOR RELIEF
REVERSING THE OPINIONS BELOW. REMANDING THE CASE BACK WITH MY BEING ALLOWED TO
HAVE A CERTIFICATE OF SERVICE ISSUED BY DISTRICT COURT THAT fi AM ALLOWED TO SERVE
ON CORTEZ. AFTER CORTEZ ANSWERS THAT I BE ALLOWED TO GO TO TRIAL THE ORDER TO
INCLUDE STOPPING THE STATE OR ITS AGENTS FROM BLOCKING MY EMAILS, PHONE CALLS,
MAIL TO ANY ONE OR ANY ADDRESS UNLESS SPECIFICALLY REQUESTED BY A PERSON OR
ADDRESS. PLUS ANY AND ALL OTHER GOOD RELIEF THAT THIS COURT ALLOWS.

1

CONCLUSION

I
&

The petition for a writ of certiorari should be granted.
I

Respectfully submitted,

Date: duL}/X)

^**0

*v

